No. 20-

IN Ti'ui

Sryreme @ourt of 0e @nfte! Stntes
JeHaenPARKSR,

Pelitioner,
v.

UurrEo Srerps or A.rvrrucA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court ofAppeals for the Fourth Circuit

MOTION TO PROCEED 1I/ ^F'OftMI PITiPERI^S
Petitioner Jamar Parker, through undersigned counsel, asks leave to file the
attached petition for a

writ of certiorari without prepayment of costs and to proceed

informa pauperis. Counsel was appointed in the United States Court of Appeals
for the Fourth Circuit pursuant to 18 U.S.C. $ 30064.
This the 24thday of October,2020.

Respectfully submitted,

istant Federal Public Defender
Counsel of Record
Eastern District of North Carolina
150 Fayetteville St., Suite 450
Raleigh, NC 27601
(919) 8s6-4236
jennifer leisten@fcl.org
Counsel

for Petitioner

